HHS/OIG-Audit--"Review of Medicare Part A, Administrative Costs for FiscalYears 1989 through 1992, Blue Cross and Blue Shield of Maryland, (A-03-93-00020)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part A, Administrative Costs for Fiscal Years 1989 through 1992, Blue Cross and Blue Shield
of Maryland." (A-03-93-00020)
January 30, 1996
Complete
Text of Report is available in PDF format (3.37 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report addresses general administrative costs claimed by Blue Cross and Blue Shield of  Maryland (BCBSM) for
the administration of the Medicare Part A program for Fiscal Years (FYs) 1989 through 1992. During the review period, BCBSM
claimed a total of   $26,019,364 in administrative costs. The primary objective of our review was to determine whether
BCBSM's costs claimed on the Final Administrative Cost Proposals (FACPs) for FYs 1989 through 1992 presented fairly the
allowable costs of administration of the Part A program in conformity with reimbursement principles contained in the prescribed
Federal regulations.
Our review showed that BCBSM improperly allocated costs totaling $898,627 to the Medicare program which were unallowable
in accordance with applicable Federal regulations and the terms of the Medicare contract.